                            AUDIT REPORT                                  IG-03-006



Report Recipients:
M/Associate Administrator
  for Space Flight            NASA’S MONITORING OF CONTRACTOR
R/Associate Administrator
  for Aerospace               COMPLIANCE WITH NEW TECHNOLOGY
  Technology
S/Associate Administrator
                                  REPORTING REQUIREMENTS
  for Space Science
Y/Associate Administrator
  for Earth Science
                                               February 13, 2003
GSFC/100/Director,
  Goddard Space Flight
  Center
JSC/AA/Director, Lyndon B.
  Johnson Space Center
LaRC/106/Acting Director,
  Langley Research Center



 cc:
 B/Deputy Chief
   Financial Officer for
   Financial
   Management
 B/Deputy Chief
   Financial Officer for
   Resources
   (Comptroller)
 BF/Director, Financial
   Management
   Division
 G/General Counsel
 H/Assistant
   Administrator for
   Procurement
 JM/Director,
   Management
   Assessment Division
 JM/Team Lead (Audit)


                             OFFICE OF INSPECTOR GENERAL
                             Released by: ____[Original Signed By]_____________
                             Alan J. Lamoreaux, Assistant Inspector General for Audits
 National Aeronautics and
 Space Administration
IG-03-006                                                             February 13, 2003
 A-02-009-00

            NASA’s Monitoring of Contractor Compliance with
               New Technology Reporting Requirements

We performed this audit to follow up on Agency actions in response to a previous review
and to determine whether NASA effectively monitored contractor reporting of new
technology developments. NASA is required to review the technical progress of work
performed under contracts to determine whether contractors are complying with the
reporting requirements. Monitoring contractors’ reporting of new technology
developments allows NASA to provide the widest practicable dissemination, early
utilization, expeditious development, and continued availability of new technologies for
the general public. Our audit focused on the initial phase of NASA’s technology
commercialization process, that is, a contractor’s reporting of a new technology
development. We did not examine the potential transfer of such technologies to foreign
partners because these transfers would occur in a later phase of NASA’s technology
commercialization process. Transfers of technology to foreign partners are generally
subject to export control laws and regulations such as the International Traffic in Arms
Regulations.

We found that some of the previously reported concerns continued to exist. Specifically,
NASA did not follow up with contractors that were required to submit reports for 6 (55
percent) of the 11 active contracts and for 1 of the 4 completed contracts reviewed. As a
result, the Agency could not be assured that new technologies, developed under contracts
valued at $9.8 billion, were transferred to private industry for commercial use.

Management Emphasis and Training Needed on New Technology Reporting and
Follow-up

The Office of Inspector General previously reported on the lack of management emphasis
on and training in new technology reporting requirements, and NASA took corrective
actions. However, these two areas continue to be concerns.

Lack of Management Emphasis. Management at Goddard Space Flight Center,
Lyndon B. Johnson Space Center, and Langley Research Center had not clearly
communicated follow-up responsibilities to new technology representatives and
contracting officer’s technical representatives (COTRs). For example, the position
descriptions for new technology representatives did not always include new technology
reporting-related responsibilities. Consequently, the new technology representatives
either were unaware of the responsibilities or believed that they had been assigned to, or
should be performed by, other NASA officials. Additionally, COTRs placed higher
priority on other delegated responsibilities.
Lack of Training. New technology representatives and COTRs were not sufficiently
trained in new technology reporting requirements. Only one of the six new technology
representatives interviewed had attended the Agency-provided “Technology Transfer and
Commercialization for Project Personnel” training, and none of the seven COTRs we
interviewed had attended training. Further, new technology reporting is not included in
NASA’s COTR training course because NASA has not designated the responsibility as a
core area of responsibility for COTRs.

Only one of the new technology representatives had received training on NASA’s
Technology Tracking System (NTTS). The NTTS is the Agency’s commercial
technology management system located at each Center and NASA Headquarters.
Although the NTTS is a major productivity tool for new technology representatives, none
of them used it to assist in managing and monitoring the reporting process.

Benefits of Contractor Compliance with Reporting Requirements

Compliance with interim and final reporting requirements does not provide complete
assurance that contractors are reporting technologies. However, the reporting
requirement is an added management control to monitor contractor development of
Agency-funded technologies and provides greater assurance that contractors are aware of
their obligation to report and disseminate the benefits of those technologies.

During fiscal year 2001, NASA had 495 research and development contracts with large
businesses. The contracts were valued at $84 billion. Some of the products resulting
from reported technologies were fire retardant materials, air pollution monitors,
noninvasive cardiac monitors, and sensors for environmental control. The return benefits
on products similar to these represent a significant dividend to the taxpayer and the
nation’s investment in aerospace research. Therefore, it is crucial that Agency
representatives monitor contractor-reporting requirements.

Recommendations

We recommended that the Associate Administrators for Aerospace Technology, Space
Flight, Earth Science, and Space Science emphasize to their applicable Center Directors
the requirement to monitor and follow up on contractors’ reporting of new technologies.
We also recommended that the Center Directors at Goddard Space Flight Center,
Lyndon B. Johnson Space Center, and Langley Research Center:

    •   incorporate new technology reporting-related responsibilities into new
        technology representatives’ position descriptions and performance plans;
    •   direct COTRs to perform their new technology reporting-related duties;
    •   direct new technology representatives and COTRs to coordinate new technology
        activities; and
    •   train new technology representatives and COTRs on new technology reporting
        requirements.




                                           2
Management’s Response and our Evaluation of the Response

NASA concurred with the report recommendations and has planned or completed
corrective actions. We considered management’s comments (see Appendix F) to be
responsive to the recommendations. Details related to disposition and closure of the
recommendations are in Appendices A and E.

Appendices

Among the appendices, note that Appendix B includes a summary of the prior Office of
Inspector General review on new technology reporting, Appendix C describes the new
technology reporting and follow-up requirements, and Appendix D lists the NASA
contracts we reviewed. Appendix G shows the report distribution.




                                            3
List of Appendices

Appendix A – Status of Recommendations

Appendix B – Objective, Background, Scope, Methodology, and Prior
              Review Summary

Appendix C – New Technology Reporting and Follow-up Requirements

Appendix D – NASA Contracts Reviewed

Appendix E – Recommendations, Management’s Response, and
             Evaluation of Management’s Response

Appendix F – Management’s Comments

Appendix G – Report Distribution




Acronyms Used in the Report

COTR        Contracting Officer’s Technical Representative
FAR         Federal Acquisition Regulation
GAO         General Accounting Office
NPD         NASA Policy Directive
NPG         NASA Procedures and Guidelines
NTTS        NASA Technology Tracking System
OIG         Office of Inspector General




                                        4
                Appendix A. Status of Recommendations


Recommendation No.       Resolved   Unresolved   Open/ECD*       Closed
       1                    X                    30 days after
                                                  issuance of
                                                  final report
         2                   X                   30 days after
                                                  issuance of
                                                  final report
         3                   X                   30 days after
                                                  issuance of
                                                  final report
         4                   X                   30 days after
                                                  issuance of
                                                  final report
          5                  X                     04-30-03
          6                  X                                     X
          7                  X                                     X
          8                  X                                     X
          9                  X                    05-31-03
         10                  X                    05-31-03
         11                  X                    05-31-03
         12                  X                    05-31-03
         13                  X                                     X
         14                  X                                     X
         15                  X                                     X
         16                  X                                     X

* ECD – Estimated Completion Date




                                    5
    Appendix B. Objective, Background, Scope, Methodology, and Prior
                            Review Summary

Objective

The overall objective was to determine whether contractors and NASA were in
compliance with the Agency’s new technology reporting and follow-up requirements.

Background

Several NASA Headquarters Offices are responsible for new technology reporting: the
Office of Procurement; the Office of General Counsel; and the Strategic Enterprise
Offices of Aerospace Technology, Space Flight, Space Science, and Earth Science. The
Office of Procurement prepares, issues, and maintains the NASA Federal Acquisition
Regulation Supplement, which contains procurement policies, procedures, and contract
clauses related to the new technology reporting requirements. The Office of General
Counsel provides guidance to ensure that NASA applies uniform criteria to the
contractors’ invention reporting. Associate Administrators for the Enterprise Offices
ensure that applicable activities under their cognizance are in compliance with NASA
technology commercialization policy established by the Office of Aerospace Technology.
The Office of Aerospace Technology also develops and maintains an Agencywide
commercial technology information system, establishes requirements and curriculum for
technology commercialization training, and provides necessary commercial technology
training to NASA employees involved in the technology commercialization processes.

NASA Center Directors are responsible for implementing an effective technology
commercialization program at the Centers. Each NASA Center has designated
individuals as the Center’s new technology representatives. Each Center’s procurement
office is responsible for incorporating applicable new technology reporting clauses1 into
research and development contracts for the performance of experimental, developmental,
research, design, or engineering work. Center procurement officials also appoint
qualified Center employees to act as Contracting Officer’s Technical Representatives
(COTRs) and to ensure that the COTRs receive adequate training.

Scope and Methodology

We limited our audit scope to NASA contracts with large businesses because the General
Accounting Office (GAO) had announced plans to review NASA’s compliance with the
Bayh-Dole Act. The Bayh-Dole Act applies to small businesses, universities, and non-
profit organizations. It generally gives those organizations the right to retain title and




1
 Two new technology-related clauses apply to research and development contracts with large businesses:
NASA FAR Supplement 1852.227-70, “New Technology," and NASA FAR Supplement 1852.227-72,
“Designation of New Technology Representative and Patent Representative.”


                                                   6
                                                                              Appendix B

profit from their inventions, provided the organizations follow certain requirements, such
as submitting interim reports. Because of GAO’s planned review, we focused our work
on contracts with large businesses.

Using the NASA Technology Tracking System (NTTS), we judgmentally selected a total
of 11 contracts (see Appendix D) from Goddard Space Flight Center (Goddard),
Lyndon B. Johnson Space Center (Johnson), and Langley Research Center (Langley)
using the following selection criteria:

    •   the contract was awarded to a large business,
    •   the contract was one of the Center’s 10 largest in terms of estimated dollar value,
        and
    •   the contract included the new technology clause.

We reviewed the procurement and technology and commercialization offices’ files and
interviewed Center procurement officials, COTRs, and new technology representatives.
We also interviewed personnel from the NASA Headquarters Offices of Aerospace
Technology, Procurement, and General Counsel.

We reviewed the following documentation at Goddard, Johnson, and Langley:

   •    New technology interim and final reports.
   •    COTR letters of delegation.
   •    NASA employee position descriptions for new technology representatives and
        patent representatives.
   •    NASA employee performance plans for new technology representatives.

Use of Computer-Processed Data

We determined that the computer-processed data in the NTTS was reliable to meet the
objectives of our audit. Therefore, we relied on that data to judgmentally select 11
contracts for review. We compared the information in the NTTS to the same information
in the NASA Financial and Contractual Status system (an online query system of active
NASA awards) and the Center procurement and technology and commercialization
offices’ files, where appropriate, to provide reasonable assurance that the NTTS data was
reliable.

Management Controls Reviewed

We reviewed laws, regulations, and Agency policies and procedures related to the
reporting and follow-up requirements for new technologies that are developed with
Agency funds. Specifically, we reviewed the National Aeronautics and Space Act of




                                             7
Appendix B

1958, as amended; the Code of Federal Regulations; the Federal Acquisition Regulation
(FAR) and NASA FAR Supplement; and NASA policy directives, procedures, and
guidelines.

We considered the lack of management emphasis and training for monitoring new
technology reporting to be control weaknesses that needed additional attention.

Audit Field Work

We performed audit field work from November 2001 through November 2002 at NASA
Headquarters, Goddard, Johnson, Langley, and the John F. Kennedy Space Center. We
performed the audit in accordance with generally accepted government auditing
standards.

Prior Review

“Review of NASA New Technology Reporting,” Report Number P&A 96-001,
September 30, 1996. (See http://www.hq.nasa.gov/office/oig/hq/pubreports.html for a
copy of the report.)

The objectives of the review were to evaluate the required reporting of new technologies
developed by NASA's large business contractors during contract performance and the
processes and procedures NASA officials followed in managing such reporting. The
review showed that the new technology reporting process, as it related to reporting by
large business contractors, lacked Agencywide direction and management support.
Principle observations follow:

   •   Existing new technology reporting policies and procedures were inadequate, and
       Agencywide operating guidelines were lacking.
   •   The NTTS was not widely used by the Centers and was being developed with
       limited input from Center users.
   •   Staff resources assigned to new technology reporting were insufficient to carry
       out new technology tracking and reporting functions.
   •   Contracting officers, COTRs, and new technology and patent representatives were
       not adequately trained on new technology reporting requirements.

The report recommended that NASA completely reassess the new technology reporting
process and develop an implementation strategy for it. At a minimum, the reassessment
was to define an active role for NASA senior management, include a detailed
implementation strategy, and provide sufficient staff for new technology reporting
activities to implement the new strategy. The report also recommended that NASA:

   •   Include specific actions regarding new technology reporting in the COTRs Letter
       of Delegation.


                                            8
                                                                             Appendix B

   •   Include elements directly related to new technology reporting in the position
       descriptions and performance appraisals of personnel assigned those
       responsibilities.

   •   Provide in-depth training on new technology reporting to all personnel considered
       key players in the new technology process.

NASA initiated corrective actions in response to the recommendations.




                                            9
Appendix C. New Technology Reporting and Follow-Up Requirements

Legislative New Technology Reporting Requirements. In accordance with the
National Aeronautics and Space Act of 1958, as amended, NASA must require
contractors to furnish “a written report containing full and complete technical information
concerning any invention, discovery, improvement, or innovation” made in performance
of work for the Agency. The Act is intended to protect the Government's interest.
Contractors’ prompt reporting also allows the Agency to provide the widest practicable and
appropriate dissemination, early utilization, expeditious development, and continued
availability of new technologies for the benefit of the scientific, industrial, and commercial
communities and the general public.

Agency New Technology Reporting Requirements. To comply with the intent of the
Space Act, NASA established NASA Federal Acquisition Regulation (FAR) Supplement
Part 1827.302, “Patent Rights Under Government Contracts.” The Supplement states that
NASA contracts and subcontracts with large businesses are subject to the Space Act and
that NASA must ensure the prompt reporting of new technologies to protect the
Government's interest and to provide the widest practicable dissemination for the benefit
of the general public.

NASA incorporates NASA FAR Supplement 1852.227-70, "New Technology,” into
contracts that involve experimental, developmental, research, design, or engineering work.
The clause requires a contractor to submit the following:

   •   Interim reports every 12 months (or such longer period as may be specified by the
       contracting officer) from the date of the contract, listing reportable items during
       that period and certifying that all reportable items have been disclosed or that
       there were no reportable items.

   •   A final report within 3 months after completion of the contracted work, listing all
       reportable items or certifying that there were no reportable items. The new
       technology clause states that final payment shall not be made before the
       contractor submits an acceptable final report. This statement provides an
       incentive for the contractor to submit a final report.

   •   A new technology report for each reportable item within 2 months after the
       inventor discloses it in writing to the contractor personnel responsible for the
       administration of the new technology clause.

Agency New Technology Follow-up Requirements. NASA FAR Supplement
1827.305-370(b), “NASA Patent Rights and New Technology Follow-up Procedures,”
requires that new technology representatives review the technical progress of work
performed under contracts to determine whether the contractors are complying with the
reporting and recordkeeping requirements of the new technology clause.




                                             10
                                                                              Appendix C

In 1998, the Office of Aerospace Technology provided guidelines for follow-up
procedures in the "Technology Commercialization Process Handbook." The handbook
lists nine follow-up procedures for the new technology representative:

   •   Review the technical progress of work performed under the contract to ascertain
       whether the contractor is complying with the clause’s reporting requirements.
   •   Receive and review new technology, interim, and final reports from the contractor
       and determine, in consultation with the Contracting Officer’s Technical
       Representative (COTR), whether submitted reports are acceptable.
   •   Request that the contractor submit interim and/or final reports if not submitted in
       a timely manner.
   •   Forward copies of all new technology reports submitted by the contractor to the
       patent representative.
   •   Forward to the patent representative all correspondence relating to inventions and
       to waivers under the new technology clause. (A large business contractor may
       submit a request for a waiver that, if approved by NASA, gives up the rights of
       the United States Government to acquire title in a subject invention.)
   •   Enter new technology reporting information into the NASA Technology Tracking
       System (NTTS), an integrated Agencywide server located at Langley. The NTTS
       is used for capturing and managing reports of new technology and for providing
       status metrics. Agency officials commonly refer to the system as the TechTracS.
   •   After consulting with the COTR, request that the contractor resubmit interim
       reports deemed to be incomplete.
   •   After consulting with the COTR, request that the contractor submit any new
       technology reports identified in interim or final reports that have not yet been
       submitted.
   •   Upon receipt of any final report required by the new technology clause and upon
       determination that all work is complete, determine whether the contractor has
       complied with the clause’s reporting requirements. If compliance occurred, the
       new technology representative shall certify to it, obtain the patent representative’s
       concurrence, and forward the certification to the contracting officer.

The handbook lists two follow-up procedures for the COTR:

   •   Monitor the technical progress of work performed under the contract to ascertain
       whether the contractor is complying with the clause’s reporting requirements.
   •   Review all interim and final reports to determine whether all expected reportable
       items or subject inventions have been disclosed, and provide input to the new
       technology representative.

In December 2001, NASA published NASA Procedures and Guidelines (NPG) 7500.1,
"NASA Technology Commercialization Process." The NPG provides guidance for
implementing NASA’s technology commercialization requirements, including the



                                            11
Appendix C

responsibilities of the new technology representative and COTR as listed in the
"Technology Commercialization Process Handbook."




                                           12
                        Appendix D. NASA Contracts Reviewed


    Center         Contract               Contractor           Submitted      Submitted      Contract
                   Number                                       Interim         Final         Value
                                                                Reports        Report       (Millions)

Goddard          NAS5 – 29500       Space Systems Loral,           No            N/A*         $ 1,100
                                      Inc.
Goddard          NAS5 – 60000       Raytheon Information           No            N/A*          1,000
                                      System Co.
Johnson          NAS9 – 18000       Boeing North                   No             Yes          5,300
                                      American, Inc.
Johnson          NAS9 – 98100       Lockheed-Martin Space          No            N/A*          2,100
                                      Operations
Langley          NAS1 – 19570       Science Applications           No             Yes            142
                                      International Corp.
Langley          NAS1 – 20048       Computer Sciences              No             Yes            151
                                      Corp.
Subtotal                                                                                     $ 9,793




Goddard          NAS5 – 98069       Boeing Satellite               Yes           N/A*           511
                                      Systems Inc.
Johnson          NAS9 – 17800       Boeing North                   Yes            No          1,900
                                      American, Inc.
Johnson          NAS9 – 20000       United Space Alliance          Yes           N/A*         9,700
Langley          NAS1 – 19039       TRW, Inc.                      Yes           N/A*           122
Langley          NAS1 – 98100       Wyle Laboratories              Yes           N/A*            57

Subtotal                                                                                    $12,290

    Total                                                                                   $22,083


*
    Denotes active contract. Therefore, the final report was not due as of July 31, 2002.




                                                   13
     Appendix E. Recommendations, Management’s Response, and
               Evaluation of Management’s Response

1. The Associate Administrator for Aerospace Technology should emphasize to the
Directors of Ames Research Center, Dryden Flight Research Center, Langley
Research Center, and John H. Glenn Research Center the requirement to follow up
on contractors’ reporting of new technologies.

Management’s Response. Concur. The Associate Administrator for Aerospace
Technology will emphasize by letter the importance of complying with the required
reporting of new technologies to all the Research Centers.

2. The Associate Administrator for Space Flight should emphasize to the Directors
of Lyndon B. Johnson Space Center, John F. Kennedy Space Center, George C.
Marshall Space Flight Center, and John C. Stennis Space Center the requirement to
follow up on contractors’ reporting of new technologies.

Management’s Response. Concur. The Office of Space Flight will direct the Centers to
enforce compliance with Federal procurement regulations and NASA policy guidance.

3. The Associate Administrator for Space Science should emphasize to the NASA
Management Office at the Jet Propulsion Laboratory, the requirement to follow up
on contractors’ reporting of new technologies.

Management’s Response. Concur. The Associate Administrator for Space Science will
emphasize the requirement to follow up on the Jet Propulsion Laboratory’s reporting of
new technologies in a memorandum to the Director, NASA Management Office.

4. The Associate Administrator for Earth Science should emphasize to the Director,
Goddard Space Flight Center, the requirement to follow up on contractors’
reporting of new technologies.

Management’s Response. Concur. The Office of Earth Science will emphasize the
importance of following Recommendations 5 through 8 in a letter to the Director,
Goddard Space Flight Center.

Evaluation of Management’s Responses. Management’s planned actions for
recommendations 1 through 4 are responsive. The recommendations are resolved but
will remain undispositioned and open until the agreed-to corrective action is completed.

The Director, Goddard Space Flight Center, should:

        5. Incorporate the new technology reporting-related responsibilities
specified in NASA FAR Supplement 1827.305-370(b) and NPG 7500.1 into new
technology representatives’ position descriptions and performance plans.



                                           14
                                                                              Appendix E

Management’s Response. Concur. Goddard’s Technology Commercialization Office
will incorporate new technology-related responsibilities into new technology
representatives’ position descriptions and performance plans.

Evaluation of Management’s Response. Management’s planned action is responsive to
the recommendation. The recommendation is resolved but will remain undispositioned
and open until the agreed-to corrective action is completed.

       6. Direct COTRs to perform new technology reporting-related duties
delegated to them by contracting officers. The COTR duties should include, but not
be limited to, ensuring contractor compliance with new technology reporting
requirements as part of his/her review of the contract performance.

Management’s Response. Concur. Goddard’s Technology Commercialization Office,
in coordination with the Procurement Office, prepared a pamphlet on new technology
reporting requirements and e-mailed the pamphlet to all Goddard COTRs. The e-mail
included a reminder that, as part of their contract surveillance, COTRs are responsible for
ensuring that contractors comply with new technology reporting requirements.

Evaluation of Management’s Response. Management’s completed action is responsive
to the recommendation. Based on our review of the pamphlet and reminder, the
recommendation is resolved, dispositioned, and closed for reporting purposes.

        7. Direct COTRs and the new technology representatives to coordinate
activities to ensure that contractors are submitting interim reports.

Management’s Response. Concur. Goddard’s Technology Commercialization Office
developed a training briefing package for new technology representatives and COTRs.
The training briefing package addresses coordination between COTRs and new
technology representatives. The Center provided the training to its new technology
representatives in September 2002. The Center incorporated the training material into the
COTR training program and began training COTRs with the new training program in
December 2002.

Evaluation of Management’s Response. Management’s completed action is responsive
to the recommendation. Based on our review of the training package, the
recommendation is resolved, dispositioned, and closed for reporting purposes.

       8. Train the new technology representatives and COTRs on new technology
reporting requirements. New technology representative training should include
reporting requirements and the use of NTTS features to the maximum extent.
COTR training should include COTR responsibilities as stipulated in the
"Technology Commercialization Process Handbook" and NPG 7500.1, delegated
responsibilities related to new technology reporting requirements, definitions of



                                            15
Appendix E

reportable items, and instructions to contact new technology representatives with
questions on whether a technology is a reportable item.

Management’s Response. Concur. Goddard’s Technology Commercialization Office
has a training package for new technology representatives and for inclusion into the
Center’s COTR training program. The Center provided the training to its new technology
representatives in September 2002 and to COTRs in December 2002. The Center
provided training on NTTS features to new technology representatives in April 2002.

Evaluation of Management’s Response. Management’s completed actions are
responsive to the recommendation. We reviewed the training package and found that it
included reporting requirements, COTR new technology-related responsibilities,
definitions of reportable items, and instructions for COTRs to contact new technology
representatives with questions on whether a technology is a reportable item. We also
reviewed evidence of the NTTS training provided to the new technology representatives.
Based on those reviews, the recommendation is resolved, dispositioned, and closed for
reporting purposes.

The Director, Lyndon B. Johnson Space Center should:

        9. Incorporate the new technology reporting-related responsibilities
specified in NASA FAR Supplement 1827.305-370(b) and NPG 7500.1 into new
technology representatives’ position descriptions and performance plans.

Management’s Response. Concur. Johnson’s Office of Technology Transfer and
Commercialization will update the position descriptions and the performance plans of the
new technology representatives.

Evaluation of Management’s Response. Management’s planned action is responsive to
the recommendation. The recommendation is resolved but will remain undispositioned
and open until the agreed-to corrective action is completed.

       10. Direct COTRs to perform new technology reporting-related duties
delegated to them by contracting officers. The COTR duties should include, but not
be limited to, ensuring contractor compliance with new technology reporting
requirements as part of his/her review of the contract performance.

Management’s Response. Concur. Johnson’s Office of Procurement will, with
assistance from the Office of Technology Transfer and Commercialization, communicate
new technology reporting duties and responsibilities to existing and future COTRs.

Evaluation of Management’s Response. Management’s planned action is responsive
to the recommendation. The recommendation is resolved but will remain undispositioned




                                           16
                                                                             Appendix E

and open until management provides to us evidence that the Center has communicated
the duties and responsibilities to existing COTRs.

        11. Direct COTRs and new technology representatives to coordinate
activities to ensure that contractors are submitting interim reports.

Management’s Response. Concur. Johnson’s Office of Technology, with the
assistance of the Office of Procurement, will implement a plan to verify contractor’s
interim reports.

Evaluation of Management’s Response. Management’s planned action is responsive to
the recommendation. The recommendation is resolved but will remain undispositioned
and open until the agreed-to corrective action is completed.

       12. Train the new technology representatives and COTRs on new technology
reporting requirements. New technology representative training should include
reporting requirements and the use of NTTS features to the maximum extent.
COTR training should include COTR responsibilities as stipulated in the
"Technology Commercialization Process Handbook" and NPG 7500.1, delegated
responsibilities related to new technology reporting requirements, definitions of
reportable items, and instructions to contact new technology representatives with
questions on whether a technology is a reportable item.

Management’s Response. Concur. Johnson has incorporated new technology reporting
requirements into COTR training and will incorporate the requirements into training
plans for new technology representatives.

Evaluation of Management’s Response. Management’s actual and planned actions are
responsive to the recommendation. The recommendation is resolved but will remain
undispositioned and open until management provides us evidence that the Center has
incorporated new technology reporting requirements into COTR training and the training
plans for new technology representatives.

The Director, Langley Research Center, should:

        13. Incorporate the new technology reporting-related responsibilities
specified in NASA FAR Supplement 1827.305-370(b) and NPG 7500.1 into the new
technology representative’s position description.

Management’s Response. Concur. Langley’s Technology Commercialization Program
Office incorporated the responsibilities into the new technology representative’s position
description on September 20, 2002.




                                            17
Appendix E

Evaluation of Management’s Response. Management’s completed action is responsive
to the recommendation. Based on our review of the position description, the
recommendation is resolved, dispositioned, and closed for reporting purposes.

       14. Direct COTRs to perform new technology reporting-related duties
delegated to them by contracting officers. The COTR duties should include, but not
be limited to, ensuring contractor compliance with new technology reporting
requirements as part of his/her review of the contract performance.

Management’s Response. Concur. Langley’s Technology Commercialization Program
Office incorporated additions to the material it uses to train COTRs on new technology
reporting. The material includes COTR’s new technology reporting-related
responsibilities and stresses the importance of ensuring proper reporting. Training of
COTRs with the additional material began in November 2002.

Evaluation of Management’s Response. Management’s completed action is responsive
to the recommendation. Based on our review of the additions to the COTR training
material, the recommendation is resolved, dispositioned, and closed for reporting
purposes.

        15. Direct COTRs and the new technology representative to coordinate
activities to ensure that contractors are submitting interim reports.

Management’s Response. Concur. Langley’s Technology Commercialization Program
Office, representing the new technology representative, and Office of Procurement,
representing the COTRs, have agreed to coordinate activities to ensure contractors submit
interim reports. Based on the agreement, the Office of Procurement will send an initial
letter reminding the contractors of their responsibility to provide the required reports,
establish a deadline submission date in each year, and inform contractors that failure to
submit the required reports may affect their annual performance evaluation rating. The
Office of Procurement will also remind each contractor annually of the requirement to
submit interim reports and will add language to new contract awards that specifically
identifies required reports.

Evaluation of Management’s Response. Management’s actions are responsive to the
recommendation. Based on our review of the initial letter and language for new contract
awards the recommendation is resolved, dispositioned, and closed for reporting purposes.

       16. Train the new technology representatives and COTRs on new technology
reporting requirements. New technology representative training should include
reporting requirements and the use of NTTS features to the maximum extent.
COTR training should include COTR responsibilities as stipulated in the
"Technology Commercialization Process Handbook" and NPG 7500.1, delegated
responsibilities related to new technology reporting requirements, definitions of



                                           18
                                                                                Appendix E

reportable items, and instructions to contact new technology representatives with
questions on whether a technology is a reportable item.

Management’s Response. Concur. Langley has trained its new technology
representative on new technology reporting requirements and the use of NTTS features
through actions taken under Recommendations 13 and 15. As noted in the response to
Recommendation 14, Langley will include additional information and emphasis on new
technology reporting requirements in future COTR training.

Evaluation of Management’s Response. Management’s actions are responsive to the
recommendation, and the recommendation is resolved. We consider the recommendation
resolved, dispositioned, and closed for reporting purposes based on (1) our review of the
new technology representative’s modified position description, (2) the new technology
representative’s understanding of new technology reporting requirements and NTTS
features as demonstrated to us through subsequent discussions, and (3) our review of the
additional information for the COTR training.


Office of General Counsel Recommendation

A NASA Office of General Counsel official suggested an additional action, discussed
below, that may improve contractor compliance with the reporting requirements.

At present, contracting officers normally incorporate the NASA FAR Supplement “New
Technology” clause, along with other clauses, into research and development contracts
by reference only. Some NASA officials believe that contractors are more likely to
comply with the reporting requirements if the full text of the new technology clause is
included in the contracts. Therefore, the official suggested that the full text of the clause
be included in all research and development contracts. We agree that the suggested
action may improve contractors’ compliance with the reporting requirements and believe
that management should take it under consideration.

The Office of Inspector General made a similar recommendation in its “Review of NASA
New Technology Reporting,” Report Number P&A 96-001, September 30, 1996 (see
Appendix B for a summary). However, NASA disagreed with the recommendation at
that time, responding that the text of the new technology clause was available to
contractors and that including the full text in contracts would waste paper and effort.




                                             19
Appendix F. Management’s Comments




               20
     Appendix F




21
Appendix F




             22
     Appendix F




23
Appendix F




             24
     Appendix F




25
                      Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
ADI/Associate Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
B/Deputy Chief Financial Officer for Financial Management
B/Deputy Chief Financial Officer for Resources (Comptroller)
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science

NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JPL/1000/Director, Jet Propulsion Laboratory
JSC/AA/Director, Lyndon B. Johnson Space Center
LaRC/106/Acting Director, Langley Research Center
KSC/AA/Director, John F. Kennedy Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
SSC/AA00/Director, John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget




                                         26
                                                                       Appendix G

Non-NASA Federal Organizations and Individuals (Cont.)

Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         27
                    NASA Assistant Inspector General for Audits
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.



Report Title: NASA’s Monitoring Contractor Compliance With New Technology
              Reporting Requirements

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                      Agree      Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically       5         4       3          2           1      N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?
#     Excellent         #    Fair
#     Very Good         #    Poor
#     Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 # Media
   #   NASA Employee                       # Public Interest
   #   Private Citizen                     # Other:
   #   Government:            Federal:          State:         Local:


May we contact you about your comments?

Yes: ______                                 No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

     Assistant Inspector General for Audits
     Code W
     NASA Headquarters
     Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at
(800) 424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.


Major Contributors to the Report

Sandra Massey, Program Director, Safety and Technology Audits

Carol St. Armand, Program Manager, Financial Audits, Management and Oversight

Douglas Orton, Auditor-in-Charge

Eugene Bauer, Auditor
